                                      Audit Report 12-02
      Management of Records at the Washington National Records Center
                          (WNRC) (Report #1)

Due to the sensitive nature of this audit, including detailing numerous security deficiencies in
NARA's handling of national security classified materials, this audit will not be disclosed in its
entirety. Our objective was to evaluate and assess the adequacy of controls over the management
and handling of records at WNRC, for this we issued two separate audit reports. This audit
specifically focused on whether controls were in place to adequately safeguard and secure the
records held at WNRC. Audit procedures focused on controls over record security, processing
new transfers of records, disposal of records, requests for existing records, and refiling of
records.

Overall we found management controls were inadequate to safeguard and adequately secure
records at WNRC. WNRC opened in 1966 and has been plagued with problems spanning the
last 30 years. Many of the past and current problems result from the abject failure of
management including a lack of effective management oversight. In this first audit report, we
noted conditions at WNRC constitute a potential national security risk. Controls to mitigate
unauthorized access to our nations' classified records residing in this facility either did not exist
or could be readily bypassed. Security mechanisms in place were inadequate and even those
minimal controls established were subject to repeat compromise. The lack of controls and
concern over protecting records resulted in an environment at WNRC where security was not a
top priority, employees lacked attention to detail, and security incidents frequently occurred.

We made 14 recommendations for improvement. Management concurred with each
recommendation. After issuance of the final report, the Archivist ordered a stand-down of each
of the Federal Records Centers (FRCs) for one day to assess whether any of the problems
identified at WNRC existed elsewhere. Based on the assessment, none of the other FRCs were
experiencing the scope of challenges faced by WNRC. Action plans are being developed for
each FRC to address any identified issues and steps to address problems will be monitored by the
Executive for Agency Services.

The Archivist also established a WNRC Oversight Group to ensure leadership participation in
oversight of plans, actions, and results related to resolving the long standing issues at WNRC.
The group is chaired by the Chief Operating Officer and includes participants from Agency
Services and Business Support Services and observers from the Information Security Oversight
Office and the OIG.
